NO. 20-2026

■H-

IN THE
SUPREME COURT OF THE UNITED STATES

LARRY E. STARRS JR • *
PETITIONER,
VS.
UNITED STATES DISTRICT COURT FOR THE CENTRAL DISTRICT OF ILLINOIS,
RESPONDENTS.
PROOF OF SERVICE
I, Larry E. Starks Jr • y do swear or declare that on this date, served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS AND PETITION FOR WRIT OF CERTIORARI on each
party to the above proceeding or that party's counsel, and on every other person required
to be served, by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calender days.
The names and addresses of those served are as follows:
Solicitor General of the United States - room 5614
~ Department of Justice
950 Pennsylvania Avenue,
N.W. Washington D.C. 20530-0001
Chief Justice, United States District Court
151 U.S. Courthouse, 600 East Monroe St.
Springfield, II. 62701
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on

Is

fa

, 2020.

(12)

